U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Dominic Anthony Davis, et al. v. United States of America
S.Ct. No. 20-7126

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 26,
2021, and placed on the docket on February 11, 2021. The government’s response is due on
March 15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7126
DAVIS, DOMINIC ANTHONY, ET AL.
USA

WENDI L. OVERMYER
OFFICE OF THE PUBLIC DEFENDER
411 B. BONNEVILLE
SUITE 250
LAS VEGAS, NV 89101
702-388-6577
WENDI_OVERMYER@FD.ORG

